September 14, 2009

MICHAEL L. BARBER
PLANT MANAGER, FORT WORTH PROCESSING AND DISTRIBUTION CENTER

SUBJECT: Audit Report – Fort Worth Processing and Distribution Center
         Delayed Mail Issues (Report Number NO-AR-09-009)

This report presents the results of our audit focusing on delayed mail issues at the Fort
Worth Processing and Distribution Center (P&DC) located in the Fort Worth Texas
District, Southwest Area (Project Number 08XG044NO000). Our objective was to
determine if mail at the Fort Worth P&DC was processed in a timely manner. This self-
initiated audit was identified by the Performance and Results Information Systems –
Network and Delivery Optimization Risk Model1 as being high risk with regard to
delayed mail. This audit addresses operational risk. See Appendix A for additional
information about this audit.

Conclusion

The Fort Worth P&DC had difficulty processing its mail timely.

    •    Delayed mail volumes increased significantly. Delayed mail volumes rose from
         over 4 million pieces by the end of fiscal year (FY) 2008 to over 21 million pieces
         in Quarter 1, FY 2009. Most of the delayed mail was Standard and Periodicals.

    •    The Fort Worth P&DC’s ability to process delayed mail diminished over time. By
         the end of FY 2008, the Fort Worth P&DC ranked twelfth out of 362 Group 1
         sites3 in processing delayed mail. By Quarter 1, FY 2009, its ranking worsened
         to twenty-fourth out of 36 sites.

    •    The Fort Worth P&DC was not fully utilizing the Automated Flat Sorting Machine
         (AFSM) 100 to process Standard and Periodicals mail.




1
  In Quarters 1 and 2, FY 2008 the Fort Worth District ranked sixth and seventh, respectively, of 80 districts in having
the most delayed mail.
2
  The lower the ranking the lower the amount of mail being delayed relative to similarly sized or Group 1 sites. For
example, a ranking of 1 indicates the particular plant delays the least amount of mail relative to its counterparts while
a ranking of 36 indicates that particular plant delays the most amount of mail relative to its counterparts.
3
  The Fort Worth P&DC is a Group 1 processing plant (based on FY 2006 groupings). There are a total of 36 plants
considered to be Group 1 based on the volume of mail they process.
Fort Worth Processing and Distribution                                     NO-AR-09-009
 Center Delayed Mail Issues


This delayed mail occurred because of staffing shortages resulting from excessive leave
usage. Management did not have established procedures in place to identify
employees who abused sick leave in order to take corrective action as necessary.
As a result, the Fort Worth District experienced a negative impact on customer service
and an increase in customer complaints. During our audit, management began to take
corrective action and had reduced delayed mail volume to 1.8 million pieces in March
2009. See Appendix B for our detailed analysis of this topic.

We recommend the Plant Manager, Fort Worth Processing and Distribution Center:

1. Follow established standards for identifying employees with attendance problems
   and ensure necessary disciplinary actions are taken for those who abuse leave
   privileges.

2. Ensure a sufficient number of employees are available to work Automated Flat
   Sorting Machines in order to process Standard Mail and Periodicals timely.

Management’s Comments

Management agreed with our findings and recommendations. Management’s
comments indicated they completed attendance training for supervisors and realigned
staffing for its automated equipment. See Appendix C for management’s comments in
their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations in the report.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James L. Ballard, Director,
Network Processing, or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments




                                           2
Fort Worth Processing and Distribution       NO-AR-09-009
 Center Delayed Mail Issues


cc: Patrick R. Donahoe
    Steve J. Forte
    Jordan M. Small
    Ellis A. Burgoyne
    David E. Williams
    Bill Harris




                                         3
Fort Worth Processing and Distribution                                      NO-AR-09-009
 Center Delayed Mail Issues




                         APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Fort Worth P&DC is located in the Fort Worth Customer Service District in the
Southwest Area. The map below shows the Southwest Area districts by three-digit ZIP
Code™.




The Fort Worth Customer Service District is comprised of the following mail processing
facilities: the Fort Worth P&DC, the Lubbock Processing and Distribution Facility
(P&DF), the Amarillo P&DF, the Abilene Post Office (PO), the and Wichita Falls PO.
The Fort Worth P&DC processed over 1.8 billion pieces of mail and used 2.1 million
workhours in FY 2008. The Postal Service owns the Fort Worth P&DC building and has
occupied the facility since 1985. The facility has an area of over 485,000 total square
feet with 305,000 square feet of interior space. This facility processes Priority Mail,
First-Class Mail, Periodicals, Standard Mail, and Packages. As of Pay Period 11,
calendar year 2009, the facility has 1,874 bargaining unit employees.




                                           4
Fort Worth Processing and Distribution                                      NO-AR-09-009
 Center Delayed Mail Issues




OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine if mail at the Fort Worth P&DC was processed in a
timely manner. To meet our objective, we conducted interviews; performed analysis of
mail volumes, workhours, and machine output; analyzed trends; and conducted
observations.

We used computer-processed data from the Web Enterprise Information System, Web
Mail Condition Reporting System, Enterprise Data Warehouse, and Management
Operating Data System. We pulled data from October 1, 2007, through December 31,
2008, but did not test controls over these systems. However, we checked the
reasonableness of results by confirming our analysis and results with management and
multiple data sources.

We conducted this performance audit from October 2008 through September 2009 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management officials on July 9, 2009, and included
their comments where appropriate.




                                           5
      Fort Worth Processing and Distribution                                                NO-AR-09-009
       Center Delayed Mail Issues


      PRIOR AUDIT COVERAGE

                                    Final
                    Report         Report      Monetary
 Report Title       Number          Date        Impact                  Report Results
Timeliness of        NO-AR-      January 29,     $0       We recommendeded management monitor
Mail Processing      09-002         2009                  delayed mail daily and develop action plans,
at the San Juan                                           if necessary, to ensure timely processing of
Processing and                                            mail; develop and submit a request to modify
Distribution                                              the Universal Sorter Machine to reduce
Center                                                    damaged mail; assign accountability to
                                                          ensure dispatches to the islands are accurate
                                                          and expedite turn-around time of any mail
                                                          sent to the wrong island; increase small
                                                          parcel bundle sorter and AFSM windows of
                                                          operation during peak volume periods;
                                                          ensure employees are properly trained to
                                                          identify delayed mail and ensure all mail is
                                                          accurately reported on Web Mail Condition
                                                          Reporting system; and consider and weigh
                                                          the benefits of service over risks to all the
                                                          U.S. Virgin Islands to keep and cancel local
                                                          letter mail as is done in other U.S. territories.
Delayed Mail at      NO-AR-       August 14,     $0       We recommended management ensure
the North Texas      08-006         2008                  supervisors oversee mail processing, monitor
P&DC                                                      delayed mail regularly, and develop action
                                                          plans; develop and implement a mail arrival
                                                          profile; ensure Standard Mail and Periodicals
                                                          are staged and processed using first-in, first-
                                                          out (FIFO) procedures; rearrange delivery bar
                                                          code sorters or move sort programs to
                                                          different pieces of mail sorting equipment to
                                                          eliminate bottlenecks in the dispatch of
                                                          delivery point sequence mail; and direct sack
                                                          mail operations be returned to the Dallas Bulk
                                                          Mail Center.
Delayed Mail at      NO-AR-       March 13,      $0       We recommended management ensure
the Waco P&DF        08-002         2008                  supervisors oversee mail processing, monitor
                                                          delayed mail regularly, and develop action
                                                          plans, if necessary, to ensure the timely
                                                          processing of Standard Mail; develop and
                                                          implement a mail arrival profile; and relocate
                                                          accumulated mail transport equipment to
                                                          allow full use of the mail processing floor.
Timeliness of        NO-AR-       September      $0       We recommended management provide
Mail Processing      07-012        28, 2007               consistent, high-quality supervision and
at the Chicago,                                           training, improve planning, make employees
Illinois Cardiss                                          accountable, and continue monitoring and
Collins P&DC                                              adjusting mail processing operations to
                                                          ensure the timely processing of mail.

Mail Processing      NO-AR-        August 6,     $0       We recommended management implement

                                                      6
     Fort Worth Processing and Distribution                                              NO-AR-09-009
      Center Delayed Mail Issues



at the               07-007         2007                procedures for sending mail to other facilities
Southeastern                                            for final processing when volume at the
Pennsylvania                                            Southeastern P&DC exceeds capacity and
P&DC                                                    instruct plant managers to process mail using
                                                        the FIFO method.
Timeliness of       NO-AR-       February 9,   $0       We recommended management correct
Mail Processing     07-001         2007                 deficiencies in the timely processing of
at the Los                                              Periodicals and Standard Mail.
Angeles,
California P&DC




                                                    7
Fort Worth Processing and Distribution                                                               NO-AR-09-009
 Center Delayed Mail Issues




                                APPENDIX B: DETAILED ANALYSIS

Delayed Mail

Delayed mail volumes increased significantly. Delayed mail volumes rose from over 4
million pieces by the end of FY 2008 to over 21 million pieces in Quarter 1, FY 2009.
Most of the delayed mail was Standard and Periodicals. Delays occurred in all classes
of mail, with Priority Mail, Periodicals, Standard, and Packages delayed mail increasing
by 482 percent, 610 percent, 381 percent, and 811 percent, respectively, from Quarter
4, FY 2008 to Quarter 1, FY 2009. First-Class Mail® delays increased 80 percent over
the same period. See Table 1.

                         Table 1: Percentage of Delayed Mail by Class,
                          Quarter 4, FY 2008 and Quarter 1, FY 20094

                                         First-
                         Priority        Class       Periodicals Standard               Packages           Total
                                         Mail
Q4, FY 2008                 6,430       332,912          797,563          3,039,727         1,598         4,178,230


Q1, FY 2009                37,420       599,008         5,663,535        14,630,108        14,556        20,944,627

Change from:
Q4, FY 2008 to             482%           80%             610%               381%           811%            401%

Q1, FY 2009




4
  At the end of Quarter 1, FY 2009, Periodicals and Standard Mail comprised 96 percent (20,293,643 of 20,944,627)
of total delayed mail volume. While delayed mail significantly increased among Priority Mail, First-Class Mail and
Package Services, the volume increases in these categories were insignificant when compared to total delayed mail
volume. First-Class Mail was almost 3 percent (599,008 of 20,944,627) of total delayed mail volume and Priority Mail
(37,420 of 20,944,627) and Package Services (14,556 of 20,944,627) were less than 1 percent each; thus we
focused on the Periodicals and Standard Mail delays.
                                                         8
Fort Worth Processing and Distribution                                         NO-AR-09-009
 Center Delayed Mail Issues




The Fort Worth P&DC had a significant amount of delayed mail compared to like-sized
facilities. We also compared the amount of the Fort Worth P&DC’s delayed mail to
average delayed mail volumes at similarly sized Group 1 sites. The charts below
benchmark the Fort Worth P&DC's performance against the average of the remaining
Group 1 sites. Total delayed mail for Group 1 sites increased from 517 million pieces in
Quarter 4, FY 2008 to 832 million pieces in Quarter 1, FY 2009, an increase of 314.8
million pieces (an average increase of 61 percent). In contrast, delayed mail at the Fort
Worth P&DC increased from 4.2 million pieces to 20.9 million pieces over the same
period — an increase of 16.8 million pieces (or 401 percent). See Table 2.

              Table 2: Volume and Percentage of Change in Delayed Mail

                                          Group 1                  Fort Worth P&DC
Quarter 4, FY 2008                       517,166,657                   4,178,230
Quarter 1, FY 2009                       832,017,586                  20,944,627
Percent Change:
Quarter 4, FY 2008 to                       61%                          401%
Quarter 1, 2009


By class of mail, the Fort Worth P&DC ranked high compared to a total of 36 sites (the
higher the ranking, the more delayed mail relative to its Group 1 counterparts). For
example, it ranked:

    •   Twenty-sixth in delayed Periodicals in Quarter 4, FY 2008, with a decline to
        thirty-fourth in Quarter 1, FY 2009. This indicated only two other P&DCs delayed
        more Periodicals than the Fort Worth P&DC during the first quarter of FY 2009.

    •   Twelfth in delayed Standard Mail in Quarter 4, FY 2008 with a decline to
        eighteenth in Quarter 1, FY 2009.

    •   Twenty-ninth in delayed Package Services mail in the Quarter 4, FY 2008 and
        remained 29th in Quarter 1, FY 2009. This ranking shows that only six other
        Group 1 plants delayed more Package Service mail than the Fort Worth P&DC.

    •   Twenty-sixth in delayed First-Class Mail in Quarter 4, FY 2008, but improved to
        twenty-third in Quarter 1, FY 2009. This ranking indicates that, although the Fort
        Worth P&DC improved, it still delayed more First-Class Mail than the majority of
        its counterparts.




                                              9
Fort Worth Processing and Distribution                                                    NO-AR-09-009
 Center Delayed Mail Issues




The following three pictures show examples of delayed mail during our observations.


                   Picture 1: Delayed Standard Mail in the flat sorting area




Eleven containers with delayed Standard Mail in the AFSM preparation area labeled with orange tags
dated October 25, 2008, for Tuesday delivery. (Tuesday, October 28, 2008, 5:29 A.M.)

                    Picture 2: Delayed Standard Mail in the flat prep area




Wire container with Standard Mail labeled with blue tag that should have been delivered on Tuesday.
(Wednesday, October 15, 2008, 5:40 A.M. Note: Monday, October 13, 2008, was Columbus Day.)



                                                  10
Fort Worth Processing and Distribution                                                            NO-AR-09-009
 Center Delayed Mail Issues




         Picture 3: Color-code label on mail container with delayed Standard Mail




Close-up of violet tag dated December 7, 2008, for Thursday delivery. The mail in this container was not
processed at the time this photo was taken and could not meet the scheduled delivery date on the color-
code tag. (Thursday, December 11, 2008, 5:58 A.M.)

Machine Capacity

The Fort Worth P&DC generally had sufficient processing capacity to process its mail
volume timely. However, opportunities exist to better use the machine capacity on the
AFSM 100 for standard mail and Periodicals.

The AFSM 100 operated at a utilization level lower than the weekly run hour target. For
example, in Quarter 4, FY 2008, the AFSM 100 utilization was 309 hours per week
compared to the weekly run hour target of 420 hours. In Quarter 1, FY 2009, the AFSM
100 utilization improved to 342 hours per week, but declined relative to the weekly run
hour target of 525.5 See Table 3.

                           Table 3: AFSM 100 Utilization and Targets

                          Fort Worth                   Weekly Hour                     Percent of
                            P&DC                       Run Target                      Utilization
Quarter 4, FY
                               309                           420                            74
   2008
Quarter 1, FY
                               342                           525                            65
   2009

5
 In Quarter 4, FY 2008, the Fort Worth P&DC operated four AFSM 100s at a weekly run hour target of 105 hours per
machine for a combined goal of 420 hours per week. In Quarter 1, FY 2009, the Fort Worth P&DC added one
machine for a combined goal of 525 hours per week.
                                                       11
Fort Worth Processing and Distribution                                            NO-AR-09-009
 Center Delayed Mail Issues




Productivity on the AFSM 100s was also below the national average. In Quarter 4, FY
2008, the national average FHP productivity was 1,473 pieces per hour. During the
same period, the Fort Worth P&DC’s FHP productivity was 1,250 pieces per hour, or
15.10 percent below the national average. In Quarter 1, FY 2009, the Fort Worth
P&DC’s FHP productivity had risen to 1,334 pieces per hour. However, it was still 9.20
percent below the national average FHP productivity of 1,469 pieces per hour. See
Table 4.

By increasing FHP productivity to the national average of 1,469 pieces per hour and
running AFSM 100s an additional 183 hours per week, the Fort Worth P&DC could
process an additional 268,915 pieces of flat mail per week.

                              Table 4: AFSM Productivity
                  Fort Worth P&DC Compared to National Achievement

                   AFSM                  Q4, FY 2008            Q1, FY 2009
             Fort Worth P&DC
                                            1,250                   1,334
             FHP Productivity
             National FHP
                                            1,473                   1,469
             Productivity
             Fort Worth P&DC
             Percent Below                 15.10%                   9.20%
             National

Criteria

The President’s Commission on the U.S. Postal Service report dated July 31, 2003,
states that the mission of the Postal Service is:

         . . . to provide high-quality, essential postal services to all persons and
         communities by the most cost-effective and efficient means possible at
         affordable and, where appropriate, uniform rates.

Title 39 U.S.C., Part 1, Chapter 4, §403, states:

         The Postal Service shall plan, develop, promote, and provide adequate and
         efficient postal services at fair and reasonable rates and fees.

Handbook PO-420, Small Plant Best Practices Guidelines, dated November 1999,
Chapter 7 (In-Plant Support) and Chapter 9 (Success Strategies), states that:

         In-Plant Support personnel may assist operations in maintaining and updating
         all signage; and successful small plants maintain excellent signage for staging
         and dispatch areas, respectively.

                                              12
Fort Worth Processing and Distribution                                      NO-AR-09-009
 Center Delayed Mail Issues




Causes

The excessive delayed mail occurred because of staffing shortages resulting from
Family Medical Leave Act (FMLA) leave usage. Management did not have established
procedures in place to track and monitor leave usage. Management advised that they
had difficulty fully staffing operations because employees used excessive amounts of
sick leave and leave covered by the FMLA.

We found sick leave usage at the Fort Worth P&DC in line with other Group 1 facilities.
For example, in Quarter 4, FY 2008, Fort Worth P&DC employees’ sick leave usage
was 4.80 percent of total workhours. Sick leave hours of employees at the remaining
Group 1 facilities accounted for 4.70 percent of total workhours. During Quarter 1, FY
2009, Fort Worth P&DC employees’ sick leave hours accounted for 5.20 percent of total
workhours while remaining Group 1 employees’ sick leave was 5.29 percent of total
workhours. See Graph 1 below.




                                          13
Fort Worth Processing and Distribution                                     NO-AR-09-009
 Center Delayed Mail Issues




                Graph 1: Sick Leave as a Percentage of Total Workhours
                           Fort Worth P&DC and Group 1 Facilities
                          (Quarter 4, FY 2008 and Quarter 1, FY 2009)




However, in contrast, Fort Worth P&DC employees used significantly more FMLA leave
when compared to total workhours than the average of the other Group 1 facilities. For
example, Fort Worth P&DC employees FMLA leave accounted for 5.75 percent of total
workhours in Quarter 4, FY 2008, while their Group 1 counterparts’ FMLA leave was
3.84 percent of total workhours. Additionally, in Quarter 1, FY 2009, Fort Worth P&DC
employees’ FMLA leave usage accounted for 5.71 percent of their total workhours. The
remaining Group 1 facilities’ FMLA leave usage was 3.88 percent of total workhours
during the same time period. See Graph 2 on the following page.




                                          14
Fort Worth Processing and Distribution                                       NO-AR-09-009
 Center Delayed Mail Issues




               Graph 2: FMLA Leave as a Percentage of Total Workhours
                          Fort Worth P&DC and Group 1 Facilities
                         (Quarter 4, FY 2008 and Quarter 1, FY 2009)




Impact

As a result of delayed mail, the Fort Worth District experienced a negative impact on
customer service and an increase in customer complaints. For example, from Quarter
4, FY 2008 to Quarter 1, FY 2009, service scores declined in all categories. Overnight
scores dropped from 97.0 percent to 96.1 percent and 2-day scores declined from
95.2 percent to 93.9 percent. Also, 3-day scores fell from 93.1 percent to 85.6 percent.
In addition, delayed mail complaints in the Fort Worth District increased from 430 in
Quarter 4, FY 2008 to 607 in Quarter 1, FY 2009.




                                           15
Fort Worth Processing and Distribution                     NO-AR-09-009
 Center Delayed Mail Issues




                       APPENDIX C: MANAGEMENT’S COMMENTS




                                         16
